September 1, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




  NASA’S USE OF RECOVERY ACT FUNDS TO REPAIR
  HURRICANE DAMAGE AT JOHNSON SPACE CENTER




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-025 (ASSIGNMENT NO. A-10-013-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CLIN         Contract Line Item
CO           Contracting Officer
COTR         Contracting Officer’s Technical Representative
CSC          Computer Sciences Corporation Applied Technology Division
FAR          The Federal Acquisition Regulation
JSC          Johnson Space Center
OIG          Office of Inspector General
OMB          Office of Management and Budget


                                                                 REPORT NO. IG-11-025
SEPTEMBER 1, 2011




                                                                                          OVERVIEW

                        NASA’S USE OF RECOVERY ACT FUNDS
                         TO REPAIR HURRICANE DAMAGE AT
                             JOHNSON SPACE CENTER

                                                                                            The Issue

   The American Recovery and Reinvestment Act of 2009 (Recovery Act) requires a
   significant level of transparency and accountability to ensure that Recovery Act funds are
   expended in accordance with the Act’s requirements and to make information about these
   expenditures readily available to the public. In support of these objectives, Federal
   Offices of Inspectors General oversee agency compliance with the Office of Management
   and Budget’s (OMB) Implementing Guidance for the Act. 1 This guidance sets forth the
   requirements agencies must follow in awarding and modifying contracts funded with
   Recovery Act funds. NASA’s Procurement Information and Grant Information Circulars
   provide additional guidance for NASA contracts.

   In 2009, NASA received a total of $1 billion in Recovery Act funds. 2 Of this amount,
   NASA allocated $50 million to Johnson Space Center (JSC) for the repair of buildings
   and facilities damaged in September 2008 by Hurricane Ike. Between June 15, 2009, and
   September 30, 2010, JSC, using Recovery Act funds, issued new contracts and modified
   several existing contracts to repair roofs and loggia on several dozen buildings; replace
   leaking windows; waterproof exterior building panels; repair street, parking lot, and
   sidewalk lights; reconstruct a hangar at Ellington Field; and refloat a barge dock on Clear
   Lake.

   The objective of our audit was to assess cost, schedule, and performance of the JSC
   contracts, as well as JSC’s compliance with applicable OMB and NASA guidance. We
   reviewed the performance of nine of the largest contractors hired by JSC to perform
   Recovery Act work. This group included one quality assurance contractor; seven
   construction contractors that performed repair work directly; and JSC’s existing facilities
   support services contractor, Computer Sciences Corporation Applied Technology
   Division (CSC), which performed construction oversight. In total, we reviewed
   $41 million of the $50 million in Recovery Act contract actions awarded by JSC.

   1
       Office of Management and Budget, “Updated Implementing Guidance for the American Recovery and
       Reinvestment Act of 2009” (M-09-15, April 3, 2009).
   2
       NASA also received $52 million in reimbursable funds from other Federal agencies, including the
       National Oceanic and Atmospheric Administration and the Department of Energy, to assist these agencies
       in meeting their Recovery Act goals.



REPORT NO. IG-11-025
                                                                                                    OVERVIEW



     Results

     In general, we found that the work performed by the nine contractors in our review met
     cost, schedule, and performance milestones, and that JSC’s use of Recovery Act funds for
     these contracts generally complied with OMB and NASA guidance. However, we
     identified a number of issues pertaining to the construction-related delivery orders JSC
     awarded to CSC. Specifically, we found that by awarding delivery orders to CSC rather
     than to a contractor that had the resources to perform the repair work directly, JSC
     incurred up to $1.8 million in excessive project oversight costs. In addition, we found
     that JSC did not negotiate with CSC project oversight costs that significantly exceeded
     independent Government estimates or otherwise appeared excessive. We also found that
     JSC project management officials approved the payment of $348,534 in questionable
     risk-related costs to CSC. We question the methodology CSC used to calculate these
     costs and whether they were reasonable under the Federal Acquisition Regulation (FAR).
     Lastly, we found that JSC officials allowed unauthorized individuals to recommend
     payment of CSC invoices.

     JSC’s Award of Three Delivery Orders Resulted in Payment of up to $1.8 Million in
     Excessive and Questionable Costs. CSC is NASA’s fourteenth largest contractor with
     over $253 million in contract actions in fiscal year (FY) 2009, including a facilities
     support services contract with JSC.3 Through a series of delivery orders on this contract,
     JSC awarded approximately $12.5 million to CSC for construction-related hurricane
     repair work using Recovery Act funds. CSC in turn hired qualified subcontractors to
     perform the work and charged JSC a fee for oversight of the subcontractors’ work. We
     reviewed cost proposals for three of the delivery orders with a combined value of
     approximately $8.2 million and found that the amount allocated to the subcontractors
     who performed the actual repair work totaled $5.9 million, while CSC’s charge for
     overseeing their work totaled nearly $2 million, or 33 percent of the subcontractors’
     costs.

     JSC’s Recovery Act Project Manager told us that at the time the decision was made to
     award the delivery orders to CSC, JSC officials did not believe they had sufficient time to
     compete, award, and obligate Recovery Act funds to ensure the hurricane repairs were
     completed in a timely manner. Therefore, in an effort to speed distribution of the funds,
     JSC officials decided to use the existing CSC contract rather than compete and award the
     work directly to contractors to perform the repairs. However, we found that JSC
     competed other Recovery Act contracts and disbursed the associated funding within
     similar timeframes as the CSC delivery orders.

     JSC further contends that awarding the delivery orders to CSC was necessary to ensure
     the projects were properly managed and supervised and that the required safety personnel

     3
         Federal Procurement Data System, “Federal Procurement Data System – Next Generation Top 100
         Contractors Report FY 2009,” https://www.fpds.gov/fpdsng cms/index.php/reports (last accessed
         February 28, 2011).



ii                                                                                    REPORT NO. IG-11-025
OVERVIEW



   were on-site. However, all of the repair work JSC awarded, including the work awarded
   to contractors other than CSC, required proper supervision and management, and it is
   unclear to us why another qualified contractor could not have satisfied this requirement.
   With regard to the need for on-site safety personnel, JSC personnel could not explain
   why only CSC was capable of satisfying this requirement. We believe that had JSC
   awarded the work covered by the CSC delivery orders directly to qualified construction
   companies, as it did for other Recovery Act funded hurricane repair work, it could have
   saved up to $1.8 million in project oversight costs. 4

   JSC Did Not Negotiate Project Oversight Costs with CSC. We found that JSC did not
   negotiate with CSC regarding its Recovery Act cost proposals to ensure NASA was
   receiving the best value for the three delivery orders we reviewed. Specifically, two of
   CSC’s cost proposals exceeded the independent Government estimate and the third
   proposal contained project oversight costs of nearly 40 percent of total subcontractor
   costs. Although the technical evaluation prepared by JSC officials for one of the delivery
   orders noted that the project oversight costs proposed by CSC exceed the amount
   provided in the Government estimate by 16 percent, it did not recommend that JSC
   negotiate with CSC in an effort to reduce these costs. Similarly, JSC accepted without
   negotiation project oversight rates of 35 and 40 percent for the other two delivery orders.

   Best practices in the construction industry indicate that the costs for general conditions –
   which comprise project oversight costs including supervision, overhead, profit, and a
   portion of general and administrative costs – should equal 15 percent of direct
   construction costs. JSC Recovery Act project staff agreed that this was a reasonable rate
   for organizations other than NASA, but noted that “JSC’s project requirements for an on-
   site Safety & Health System Professional increase project costs substantially.” However,
   even taking this additional requirement into account, CSC’s project oversight rates were
   significantly above the industry standard. Accordingly, we question the reasonableness
   of CSC proposed costs and believe that JSC should have negotiated the proposed rates
   with CSC to ensure it was receiving the best value for its money.

   JSC Paid $348,534 for Questionable Risk-Related Costs. We found that two CSC
   delivery orders for Recovery Act-funded hurricane repair work included $348,534 in
   questionable charges. The FAR requires that contractors exclude from proposals costs
   “for events whose effect cannot be measured so precisely as to provide equitable results
   to the contractor and the Government,” but provides that such costs “should be disclosed
   separately (including the basis upon which the [cost] is computed) to facilitate the
   negotiation of appropriate contractual coverage.” JSC’s contract with CSC permitted
   CSC to include “risk of poor subcontractor performance” and “other risks of doing
   business.” Accordingly, in their cost proposals, CSC included risk-related charges
   involving such events as subcontractor default, property damage, grounds cleanup, and
   hurricane mobilization. However, JSC did not obtain the information necessary to

   4
       We excluded from our questioned costs the approximately $140,000 JSC paid CSC for the on-site safety
       professional on the assumption that these costs would have been necessary no matter who performed the
       work.



REPORT NO. IG-11-025                                                                                           iii
                                                                                                  OVERVIEW



     determine if CSC’s basis for these costs was appropriate and reasonable. In addition, we
     found that in several instances CSC used different probabilities to account for the same
     risk. For example, for the risk of “Property Damage,” CSC indicated a 50 percent
     probability of occurrence under one delivery order and a 60 percent probability under
     another. Similarly, for the risk event “Hurricane Mobilization,” CSC estimated the
     probability at 50 percent for one delivery order and 55 percent for another. CSC’s
     inconsistent application of the methodology used to develop these risk-based costs
     coupled with JSC’s failure to review the basis for these costs prior to agreeing to pay
     them leads us to question the $348,534 in risk-based costs that JSC paid to CSC.

     Unauthorized Persons Recommended Payment of CSC Invoices. The contracting
     officer’s technical representative (COTR) delegation letter for CSC’s contract allows
     only the COTR to recommend the payment of contractor invoices. 5 However, we found
     that JSC project and program managers, who were not delegated this responsibility,
     recommended the payment of seven invoices totaling over $9 million.

     The JSC Recovery Act Project Manager stated that the JSC program managers were
     involved in reviewing and recommending CSC invoices for payment as part of their
     “monitoring contractor progress” duties, which is permissible under NASA’s FAR
     Supplement. While we agree that it is permissible and indeed advisable for COTRs to
     receive assistance from project managers in monitoring contractor progress, we do not
     believe this provision authorizes JSC’s program managers to recommend payment of
     invoices without proper delegation. Moreover, allowing unauthorized individuals such as
     the project or program manager to make payment recommendations increases the risk
     that improper payments will occur.

     Management Action

     JSC incurred up to $1.8 million in excessive project oversight costs and paid $348,534 in
     questionable risk-related costs to CSC. However, JSC agreed to pay these amounts as
     part of a fixed-price contract and therefore was obligated to pay CSC for these charges.
     To address the issues we identified, we recommended the Recovery Act Implementation
     Executive work with NASA’s Assistant Administrator for Procurement to: (1) provide
     updated guidance or training to address the proper selection of contract vehicle, including
     considerations for use of existing contracts in lieu of new awards and a reminder to
     evaluate proposals for excessive pass-through costs in accordance with the FAR;
     (2) include in cost analysis training presentations and materials procedures to ensure that
     contracting officers verify contractor-proposed charges for individual cost elements
     against appropriate supporting documentation, evaluate rates proposed by the contractor
     to ensure their reasonableness, and document this determination in the contract files; and
     (3) remind contracting officers that for contracts where a COTR has been appointed, only
     the COTR is authorized to recommend invoices for payment. If, on a particular contract,
     5
         NASA FAR Supplement (NFS) 1842.270(b) requires contracting officers to sign a separate COTR
         delegation letter for each COTR assigned to a contract.



iv                                                                                   REPORT NO. IG-11-025
OVERVIEW



   someone other than the assigned COTR is in a better position to review technical
   progress for payment purposes, remind contracting officers that a formal delegation
   naming that individual as an alternate COTR is required.

   In response to our draft report, NASA’s Chief Financial Officer concurred with our
   recommendations, stating that the Agency’s Recovery Act Executive will work with
   NASA’s Assistant Administrator for Procurement to improve existing processes.
   Specifically, by October 2011 NASA’s Assistant Administrator will add a training
   module to NASA’s cost and pricing training to ensure the proper selection of contract
   vehicles. Further, the Assistant Administrator will ensure that presentations and
   materials for upcoming cost analysis training scheduled to be conducted by November
   2011 includes procedures on analyzing the individual cost elements of non-standard rates
   such as those proposed by CSC in a risk coefficient. Additionally, Agency training will
   continue to emphasize rate review and analysis, cost reasonableness determinations, and
   file documentation. The Assistant Administrator will also remind contracting officers
   that for contracts on which a COTR has been delegated authority to recommend invoices
   for payment, only the COTR is authorized to recommend invoices for payment to the
   contract officer. We consider the Agency’s proposed actions responsive and will close
   the recommendations upon completion and verification of those actions.

   The Agency also provided technical comments on our draft report, which we
   incorporated as appropriate.




REPORT NO. IG-11-025                                                                          v
SEPTEMBER 1, 2011




                                                             CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

   RESULTS
      JSC’s Award of Three Delivery Orders Resulted in up to $1.8 Million
         in Excessive and Questionable Costs____________________ 6

   APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls ____________________________ 16
      Prior Coverage ______________________________________ 17

   APPENDIX B
      Schedule of Questioned Costs Paid to Contractor ___________ 18

   APPENDIX C
      Report Distribution ___________________________________ 22




REPORT NO. IG-11-025
INTRODUCTION




                                                                                  INTRODUCTION


Background

   On February 17, 2009, the American Recovery and Reinvestment Act (Recovery Act)
   became law. The Recovery Act seeks to strengthen the U.S. economy by creating new
   jobs, spurring technological advances in science and health, and investing in
   infrastructure. The Act requires a significant level of transparency and accountability to
   ensure that funds are expended in accordance with its requirements and that information
   about expenditures is readily available to the public. In addition, the Act provides that
   whenever possible agencies should compete contracts and utilize small businesses when
   awarding Recovery Act funds.

   NASA received approximately $1 billion under the Recovery Act, which it allocated to
   the following mission areas: 6

         •    Science: $400 million to accelerate the development of the Tier 1 set of Earth
              Science climate research missions recommended by the National Academies
              Decadal Survey, increase the Agency’s supercomputing capabilities, and maintain
              current workforce levels on and increase the likelihood of achieving the scheduled
              launch date of the James Webb Space Telescope.
         •    Aeronautics: $150 million for system-level research, development, and
              demonstration activities related to aviation, safety, environmental impact
              mitigation, and the Next Generation Air Transportation System.
         •    Exploration: $400 million to develop safe and robust capabilities for human
              space exploration and stimulate efforts within the private sector to develop and
              demonstrate technologies that enable commercial human spaceflight capabilities.
         •    Cross-Agency Support: $50 million to restore NASA-owned facilities damaged
              by natural disasters in 2008.

   All of the direct funds NASA designated for Cross-Agency Support were made available
   to the Johnson Space Center (JSC) to restore NASA-owned facilities damaged in
   September 2008 by Hurricane Ike, the most expensive weather catastrophe in Texas
   history and the third costliest hurricane to strike the United States. 7 JSC closed for 6½
   business days due to damage from the hurricane.


   6
       NASA also received approximately $52 million in reimbursable Recovery Act funds from other Federal
       agencies, including the National Oceanic and Atmospheric Administration and the Department of Energy.
   7
       Purva Patel, “Pricetag for Ike: $15 billion, insurers say,” January 28, 2010,
       http://www.chron.com/disp/story.mpl/business/6839732 html (accessed February 28, 2011).



REPORT No. IG-11-025                                                                                           1
                                                                                  INTRODUCTION



    The repairs of hurricane damage at JSC were performed in two phases. The first phase
    involved high-priority repairs paid for with Space Shuttle facilities program funds. The
    second phase of work was funded with the $50 million in Recovery Act funds. This
    second phase of work included:

        •   Repair of roofs on more than 20 buildings;
        •   Replacement of 2,370 windows in Building 1;
        •   Replacement of more than 100 street, parking, and sidewalk lights;
        •   Repair of exterior panels on 36 buildings, including replacing over 200,000 linear
            feet (nearly 40 miles) of caulking, and cleaning and waterproofing over 1 million
            square feet of building panels;
        •   Repair of loggia ledges on 11 buildings
        •   Reconstruction of an aircraft hangar at Ellington Field;
        •   Repair of the JSC barge dock on Clear Lake; and
        •   Replacement of damaged carpet in one building.

    Figure 1. Damage to JSC Building Caused by Hurricane Ike




    Source: Johnson Space Center

    To accomplish this repair work, JSC created nine work packages of activities of a similar
    kind, area, or operation: two large roof and loggia packages covering more than two


2                                                                         REPORT NO. IG-11-025
INTRODUCTION



   dozen individual projects and seven smaller packages each totaling less than $3.5 million.
   JSC competitively awarded the two larger packages through an invitation-for-bid process
   and directly awarded the seven smaller packages to small disadvantaged businesses. In
   addition, JSC awarded 19 firm-fixed price delivery orders to Computer Sciences
   Corporation Applied Technology Division (CSC) using an existing facilities support
   services contract. In total, JSC awarded approximately $45 million in Recovery Act
   contract actions for repair work to eight construction companies and CSC. As part of this
   audit, we reviewed the performance of CSC and seven of the eight construction firms. 8

   JSC also awarded over $5 million in Recovery Act funds for support services such as
   building inspection, institutional safety, environmental services, facilities support, and
   administrative support. JSC awarded one task order to CSC for facilities support services
   and made awards to four other support services contractors. We reviewed the
   performance of one of these contractors – Gilbane Building Company – that received
   $3.5 million in Recovery Act funds. Table 1 provides a summary of the contract actions
   we examined.




   8
       We did not review one award totaling $82,578.73 due to its small size.



REPORT NO. IG-11-025                                                                            3
                                                                                                     INTRODUCTION




                            Table 1. Johnson Space Center Cross-Agency Support
                           Recovery Act Contracts Actions as of December 31, 2010
                Contractor’s Name                     Total Awarded             Total Reviewed           Percent
     All American Brothers Company, LLC                   $898,180.00               $847,300.00             94
     Competitive Choice, Inc.                              $82,578.73                      $0                0
                                            a,b
     CSC Applied Technology Division                   $12,493,313.69             $5,488,369.00             44
     DRI Commercial Corporation                         $8,027,463.70             $8,027,463.70            100
     Gee Cee                                            $2,883,758.00             $2,883,758.00            100
     Rycars Construction                               $10,040,522.92            $10,040,523.00            100
     SIA Construction                                   $1,834,945.78             $1,834,945.78            100
     Specpro Environmental Services c                   $4,359,716.92             $4,359,716.92            100
     W.A. Robbins                                       $3,985,607.02             $3,985,607.02            100
          Subtotal Construction Contracts              $44,606,086.76            $37,467,683.42             84

     Anadarko Industries, Inc.                            $438,998.09                      $0                0
                                            d
     CSC Applied Technology Division                      $207,246.00                      $0                0
     Earth Resources Technology, Inc.                     $425,025.82                      $0                0
     Gilbane Building Company                           $3,522,977.06             $3,522,977.06            100
     4W Solutions                                         $791,489.72                        0               0
          Subtotal Support Services                     $5,385,736.69             $3,522,977.06             65
          Contracts

             Total Construction and Support
             Services Contracts                         $49,991,823.45           $40,990,660.56             82
     a
         Due to issues identified during fieldwork with CSC’s charges for risk and project oversight, we
         expanded our sample to include an additional delivery order valued at $2.7 million.
     b
         JSC classified the contract actions for the building repair tasks as construction, even though the awards
         were delivery orders under CSC’s facilities support services contract.
     c
         We reviewed 2 separate Specpro contracts.
     d
         In addition to the construction delivery orders, CSC received a separate task order to provide facilities
         support services as required during the execution of hurricane repairs completed by other contractors.
     Source: Adapted from JSC’s Cross-Agency Support Overview Update, Recovery Act contracts and
     contract modifications documentation (August 31, 2010).


Objectives

    The overall objective of our audit was to assess JSC’s use of Recovery Act funds to
    achieve cost, schedule, and performance milestones, as well as compliance with OMB
    and NASA guidance. Specifically, we examined whether JSC used reliable cost
    estimates in expending these funds, accomplished milestones within cost estimates,


4                                                                                           REPORT NO. IG-11-025
INTRODUCTION



   completed work within established schedule baselines, accomplished stated goals and
   objectives, and monitored the use of small business contractors.

   To accomplish our objective, we reviewed approximately $41 million of the $50 million
   in Recovery Act contract actions awarded by JSC for hurricane repair work and other
   associated tasks. We selected nine of the largest contractors that received JSC awards,
   including eight that performed hurricane repair work and one support services contractor
   that inspected the work. We interviewed Agency officials and reviewed contracts,
   contract modifications, delivery orders, task orders, proposals, invoices, technical
   progress reports, and other documentation. We also assessed NASA’s and the
   contractors’ compliance with NASA and OMB guidance and with applicable
   requirements of the Federal Acquisition Regulation (FAR). We reviewed internal
   controls as appropriate. See Appendix A for details of the audit’s scope and
   methodology, our review of internal controls, and a description of prior related audit
   coverage.




REPORT NO. IG-11-025                                                                          5
                                                                                                             RESULTS




                                    JSC’S AWARD OF THREE DELIVERY ORDERS
                                             RESULTED IN PAYMENT OF UP TO
                                            $1.8 MILLION IN EXCESSIVE AND
                                                      QUESTIONABLE COSTS
               The nine firms in our sample of contractors JSC hired to perform repair work all met
               cost, schedule, and performance milestones. However, we found that by awarding
               three delivery orders to CSC, the Center’s existing support services contractor, rather
               than directly to construction firms with the resources to directly perform the work,
               JSC incurred up to $1.8 million in excessive costs. We also found that JSC did not
               negotiate with CSC on the proposed project oversight costs that exceeded
               independent Government estimates or otherwise appeared excessive; JSC project
               management officials approved the payment to CSC of $348,534 in questionable
               risk-related costs; and JSC contracting personnel permitted individuals other than the
               contracting officer’s technical representative (COTR) to recommend payment of
               CSC invoices, increasing the risk of improper payment under the contract.


JSC Incurred up to $1.8 Million in Excessive Project Oversight
  Costs

    In FY 2008, JSC competitively awarded CSC a large facilities support services contract
    with a combined estimated base value of over $291 million through FY 2011. Under this
    contract, CSC provides support services in areas such as administration; repairs and
    maintenance; utility operations; information technology; and engineering, design, and
    construction. Other NASA Centers have similar contracts for support services with other
    firms. Since September 2009, JSC has awarded CSC 19 delivery orders for Recovery
    Act-funded hurricane repair work totaling over $12.5 million under this competitive
    contract.

    We reviewed three of the Recovery Act delivery orders awarded to CSC worth
    approximately $8 million. We found that of this amount, $5.9 million paid for
    subcontractor costs and nearly $2 million, or 33 percent of the total subcontractor costs,
    went to CSC for its project oversight (see Table 2). 9 CSC hired subcontractors to
    perform a majority of the construction work identified on the three delivery orders, and
    acted in a project oversight capacity supervising the work of the subcontractors it hired.
    According to CSC’s cost proposals, its project oversight costs consist of the project
    oversight team’s labor, risk (which CSC identifies as costs from project delays), general

    9
        CSC’s project oversight costs included the cost of CSC’s project oversight team, risk, general and
        administrative costs, and profit.



6                                                                                         REPORT NO. IG-11-025
RESULTS



   and administrative costs, and profit. In accordance with the support services contract,
   CSC was permitted to charge these costs as a percentage of subcontractor costs.

                 Table 2. Subcontractor Cost and CSC Project Oversight Amounts for
                               Delivery Orders 1011, 1168, and 1201a

                    Subcontract       CSC Project       CSC Project
   Delivery         Base Dollar        Oversight         Oversight
    Order             Amount           Amount            (Percent)                    Description
       1011         $2,117,170          $550,464            26.00        Replace roof on cafeteria building
                                                                         Repair, caulk, and waterproof
       1168         $1,714,278          $599,997            35.00        panels on 13 JSC buildings
                                                                         Repair, caulk, and waterproof
       1201         $2,083,181          $827,335            39.72        panels on 17 JSC buildings
         Total      $5,914,629        $1,977,796            33.44
   a
       The CSC Recovery Act awards included 19 delivery orders for facility repairs totaling $12.5 million.
       We selected three of these delivery orders for review, totaling approximately $8.2 million or 65 percent
       of the total Recovery Act award.
   Source: CSC’s delivery order proposals.

   JSC’s Award of Three Delivery Orders to CSC Resulted in Excessive Oversight
   Costs. JSC’s Recovery Act Project Manager indicated that JSC awarded the delivery
   orders to CSC rather than to qualified construction firms through a new competition for
   several reasons. First, JSC personnel believed that they needed to utilize the existing
   CSC contract to ensure the repairs were completed in a timely manner. However, we
   found that JSC conducted a new competition for other large Recovery Act contracts and
   disbursed that funding to individual contractors within timeframes that were similar to,
   and sometimes shorter than, the time it took to award the delivery orders to CSC. For
   example, for two of the large Recovery Act construction contracts, 74 and 108 days
   elapsed between issuance of the solicitation and award. In contrast, for CSC delivery
   order 1168, 122 days elapsed between the dates JSC issued the request for quote and
   awarded the delivery order (see Figure 2). In addition, the periods of performance for the
   newly competed contracts and the delivery orders under the competitive CSC facilities
   support services contract were not materially different, ranging from 180 to 436 days for
   the construction contracts and 220 days to 336 days for the delivery orders.




REPORT NO. IG-11-025                                                                                              7
                                                                                                     RESULTS



    Figure 2. Sequence of Three CSC Delivery Orders Reviewed in Line with JSC’s Recovery
    Act Contract Awarding Events




    NASA Procurement Information Circular 09-06 states that “[t]he Recovery Act, and all
    associated guidance, expresses a clear preference for award of fixed-price, competitive
    contracts. [Contracting officers] shall support these principles and maximize the use of
    fixed-price, competitive contracts, as appropriate, in awarding contracts that use
    Recovery Act funding.” 10 Further, the “Competition in Contracts” paragraph of NASA’s
    Revised Recovery Plan states, in part:

               The Recovery Act states that funds are to be awarded primarily using competitive
               procedures. NASA practices full and open competition where prudent. There are
               instances where in the highly complex and specialized business of space that non-
               competitive contract mechanisms are warranted.

    JSC carried out these principles in creating nine work packages of activities similar in
    kind, area, and operation, and competitively awarding the two larger work packages and
    directly awarding the seven smaller packages to small disadvantaged businesses.
    However, for the remaining hurricane repairs, JSC did not obtain bids from other
    qualified construction contractors. Instead, JSC used the competitively awarded facilities
    support services contract to award delivery orders to CSC to complete the hurricane
    repairs. We believe that by using the existing facilities support services contract to award
    this work to CSC, JSC, while not violating NASA’s Recovery Act principles or OMB’s
    Recovery Act guidance, missed an opportunity to realize potential cost savings that could
    have been achieved by newly competing some or all of this work.

    10
         NASA Procurement Information Circulars 09-06D – H, General Principles (b), dated August 10, 2009 –
         November 23, 2010.



8                                                                                     REPORT NO. IG-11-025
RESULTS



   Second, JSC contends that awarding the delivery orders to CSC was necessary to ensure
   the projects were properly managed and supervised and that on-site safety personnel were
   provided. However, all of the repair work JSC awarded, including the work awarded to
   contractors other than CSC, required proper supervision and management, and it is
   unclear to us why another qualified contractor could not have satisfied this requirement.
   Indeed, the proposals submitted by CSC’s subcontractors for delivery orders 1168 and
   1201 indicated that they would provide insurance, labor, materials, equipment, and
   supervision for the proposed projects. With regard to the need for on-site safety
   personnel, JSC personnel could not explain why only CSC was capable of satisfying this
   requirement.

   In our view, if JSC had awarded these delivery orders to a qualified construction
   contractor with the resources to conduct the necessary repair work, thus eliminating the
   intermediary, the Center could have saved up to $1.8 million of the nearly $2 million in
   project oversight costs paid to CSC (see Appendix C for a Schedule of Questioned
   Costs). 11


JSC Did Not Negotiate Excessive Project Oversight Costs with CSC

   We found that CSC’s project oversight costs for delivery order 1011 substantially
   exceeded the independent Government estimate of 10 percent for such services. The
   technical evaluation prepared by JSC personnel for this delivery order noted this
   disparity. However, the technical evaluator neither questioned CSC’s proposal nor
   recommended further negotiation; instead, the evaluator recommended adjusting the
   Government estimate to allow for CSC’s higher project oversight percentage and
   accepting CSC’s proposal.

   The technical evaluations of the proposals for the two other CSC delivery orders we
   reviewed did not specifically discuss CSC’s oversight costs and associated rates in
   relation to the independent Government estimate, so we were unable to conduct a similar
   comparison for those two proposals. However, our review of those technical evaluations
   showed that JSC did not raise concerns about the percentages of the proposed project
   oversight costs – 35 percent for delivery order 1168 and nearly 40 percent for delivery
   order 1201 – or the amounts CSC was charging for project oversight. Instead, the
   technical evaluations recommended accepting CSC’s proposed costs as fair and
   reasonable.

   Best practices in the construction industry indicate that the costs for general conditions,
   which include project oversight plus overhead, profit, and a portion of general and
   administrative costs, should equal 15 percent of direct construction costs. JSC Recovery
   Act project staff agreed with the rates indentified by the industry guidance but indicated
   11
        We excluded from our questioned costs the approximately $140,000 JSC paid CSC for the on-site safety
        professional on the assumption that these costs would have been necessary no matter who performed the
        work.



REPORT NO. IG-11-025                                                                                            9
                                                                                                          RESULTS



     that “JSC’s project requirements for an on-site Safety & Health System Professional
     increase the percentage substantially.” However, even considering this additional cost,
     the project oversight rates charged by CSC significantly exceeded the industry standard.
     In our view, JSC should have negotiated these rates to ensure the Government was
     receiving the best value.

     The FAR states that the contracting officer is responsible for negotiating a price that is
     fair and reasonable to both the Government and the contractor. However, there were no
     negotiations related to delivery orders 1168 and 1201. The price negotiation memoranda
     prepared by JSC contracting personnel for these delivery orders states that negotiations
     were not conducted based on information provided in the technical evaluations. The
     technical evaluation for delivery order 1168 states, “Even though the overall Contractor’s
     costs are greater than the IGE (Independent Government Estimate), the Contractor’s
     proposed costs should be accepted, as the basis of the estimate was not given a definitive
     quantity.” We question this rationale given that for this delivery order, CSC was
     performing specified repairs on 13 JSC buildings. Therefore, we believe that JSC did not
     have sufficient justification for allowing proposed project costs that exceeded the
     independent Government estimate or for accepting CSC’s project oversight costs as
     reasonable without negotiation of these costs with CSC.

JSC Paid $348,534 for Questionable Risk-Related Costs

     The FAR requires contractors to exclude from estimates costs “for events whose effect
     cannot be measured so precisely as to provide equitable results to the contractor and the
     Government,” and provides that such costs “should be disclosed separately (including the
     basis upon which the [cost] is computed) to facilitate the negotiation of appropriate
     contractual coverage.” 12

     We found that two of the CSC delivery orders included charges for risk of $348,534. 13
     The underlying CSC facilities support services contract permitted the inclusion of these
     costs based on the elements of “risk of poor subcontractor performance and re-
     performance” and “other risks of doing business.” In calculating these costs, the contract
     allowed CSC to consider such risk events as property damage, subcontractor dispute,
     subcontractor default, legal action, environmental non-compliance, worker injuries, other
     mishaps, Recovery Act audit, unanticipated barriers/protection, grounds cleanup, and
     hurricane mobilization/demobilization costs.

     The JSC Recovery Act Project Manager told us that the CSC contract provision regarding
     these costs “represents a reasonable, allowable, and necessary basis for pricing risk items
     in the delivery orders” and that “the [Contracting Officer] views this practice as a cost of

     12
          FAR 31.205-7 (c)(2)
     13
          JSC did not require CSC to provide documentation to support the project management oversight costs for
          delivery order 1011; therefore, we were unable to determine the amount of risk charged to NASA for that
          delivery order.



10                                                                                       REPORT NO. IG-11-025
RESULTS



   doing business that is not necessarily captured in the contractor’s rates and factors . . ..”
   However, we found no evidence in JSC’s CSC contract files that would explain the basis
   for the risk-based costs associated with the two delivery orders. Accordingly, we
   requested that JSC obtain this information from CSC for our review.

   In their initial response, CSC did not provide JSC any documentation to support how they
   had calculated these costs. We then requested further clarification from JSC regarding
   the basis for CSC’s calculations. In response, the JSC Recovery Act Project Manager
   stated:

          CSC built a list of risks associated with performing a project of this magnitude and
          applied a probability impact against each risk. The contractor [CSC] determined that
          the primary risk in these two projects was the uncertainty of delays and the associated
          labor costs of the oversight team. The project duration and project variables listed
          above created uncertainty (risk) for CSC in approaching this fixed-price project. The
          contractor did not have applicable history data on these uncertainties. CSC
          management brainstormed and used expert judgment to identify and quantify the risk
          events. The costs included in the risk coefficient were only those associated with the
          CSC Project Oversight Team labor.

   As part of their response to our request for clarification, CSC provided a document for
   each delivery order entitled “Risk Estimate.” According to these documents, CSC
   developed the cost for risk events using project oversight labor costs and the probability
   that a particular risk event would occur. However, CSC did not provide this information
   to JSC as part of its cost proposals, and JSC only requested the information from CSC as
   a result of our inquiries. We therefore question how JSC could have determined that
   these costs were appropriate when the basis for them was not disclosed at the time the
   proposals were submitted or approved. As a result, we believe that JSC’s actions were
   inconsistent with the FAR in permitting the inclusion of these contingency costs in CSC’s
   proposals without first determining the basis for these costs and whether they were
   reasonable.

   In addition, based on our review of the documents CSC provided, we question the
   methodology CSC used to develop the costs associated with certain risk events. Both
   delivery orders 1168 and 1201 were for the restoration and waterproofing of building
   panels, and both provided for the use of the same subcontractor and for all of the work to
   be performed during the same time period. However, we noted that in several instances
   CSC used different probabilities on each delivery order to account for the same risk. For
   example, for the risk “Property Damage” CSC indicated a 50 percent probability of
   occurrence under delivery order 1168 and a 60 percent probability under delivery order
   1201. Similarly, for the risk event “Hurricane Mob[ilization]/Demob[ilization],” CSC
   estimated the probability at 50 percent for delivery order 1168 and 55 percent for delivery
   order 1201. We also question the basis on which CSC quantified this risk because
   researchers at the University of Houston, using available prior-year reference data from




REPORT NO. IG-11-025                                                                                11
                                                                                                         RESULTS



     the National Hurricane Center and NOAA, predicted the probability of a hurricane hitting
     anywhere in the state of Texas in 2010 at only 35 percent. 14

     The FAR states that a cost is allowable only when it is reasonable, allocable, and
     complies with the terms of the contract and the limitations set forth in FAR subpart
     31.2. 15 A cost is reasonable if it does not exceed the amount that a prudent person would
     pay under similar circumstances in the conduct of competitive business. To ensure
     compliance with acquisition regulations, contracting officers must review proposed costs
     for reasonableness and allowability.

     We are concerned about CSC’s methodology for calculating risk and that JSC did not
     request or review this methodology at the time the proposals were submitted or
     approved. Consequently, we question whether the $348,534 in risk costs JSC paid to
     CSC was reasonable within the meaning of the FAR (see Appendix C for a Schedule of
     Questioned Costs).

Unauthorized Persons Recommended Payment of Invoices

     We reviewed seven CSC invoices totaling over $9 million and noted that individuals
     other than the contracting officer (CO) or the COTR recommended them for payment.
     Specifically, either the JSC project manager or program manager recommended these
     seven invoices for payment. The NASA FAR Supplement requires contracting officers
     to sign a separate COTR delegation letter for each COTR assigned to a contract. 16
     Further, section 3(g) of NASA’s COTR Delegation requires the designated COTR to
     review contractor invoices and recommend approval for payment, as appropriate; COTRs
     cannot re-delegate their duties and responsibilities. 17

     According to the JSC Recovery Act Project Manager, JSC does not delegate the authority
     to recommend payment to the project manager overseeing performance of the delivery
     orders. However, the Recovery Act Project Manager stated that “it’s permissible under
     NASA’s FAR supplement for the COTR to receive assistance for the purpose of
     monitoring contractor progress and gathering information. It is from this perspective that
     we engage the [program managers] in the review of [Recovery Act] invoices.” While we
     agree that it is permissible and indeed advisable for COTRs to receive assistance from
     project managers in monitoring contractor progress, we do not believe that a provision
     allowing for such review justifies managers recommending payment of invoices.
     Moreover, allowing unauthorized individuals such as the project or program manager to
     make payment recommendations increases the risk that improper payments will occur.


     14
          Erin D. McKenzie, “UH Researchers Predict Probability of Hurricane Hitting Texas,” University of
          Houston Engineering News, June 15, 2010.
     15
          FAR 31.201.2.
     16
          NASA FAR Supplement (NFS) 1842.270(c).
     17
          NASA Form 1634.



12                                                                                      REPORT NO. IG-11-025
RESULTS



Recommendations, Management’s Response and Evaluation of
  Management’s Response

   JSC incurred up to $1.8 million in excessive project oversight costs and paid $348,534 in
   questionable risk-related costs to CSC. JSC agreed to pay these amounts as part of a
   fixed-price contract and therefore was obligated to pay CSC for the work it performed.
   However, to address the issues we identified, we recommended that the Agency’s
   Recovery Act Implementation Executive work with NASA’s Assistant Administrator for
   Procurement to:

Recommendation 1. Provide guidance or training to address the proper selection of contract
vehicle, to include considerations for use of existing contracts in lieu of new awards. Such
guidance or training should include a reminder to evaluate proposals for excessive pass-
through costs in accordance with the FAR and ensure proper documentation in the file for
determinations of value added by the prime when a large portion of the work will be
subcontracted.

   Management’s Response: Concur. The Assistant Administrator for Procurement will
   add a training module to NASA’s cost and pricing training to ensure the proper selection
   of contract vehicles.

   Estimated Completion Date: October 2011

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive to the intent of the recommendation. Therefore, the recommendation is
   resolved and will be closed upon completion and verification of the proposed action.

Recommendation 2. Include in cost analysis training presentations and materials procedures
to ensure that contracting officers verify contractor-proposed charges for individual cost
elements against appropriate supporting documentation; evaluate rates proposed by the
contractor to ensure their reasonableness; and document this determination in the contract
files.

   Management’s Response: Concur. The Assistant Administrator for Procurement will
   assure that, in upcoming cost analysis training, presentations and materials will include
   procedures on analyzing individual cost elements which make up non-standard rates,
   such as those proposed by CSC in a risk coefficient. Additionally, Agency cost analysis
   training will continue to emphasize rate review and analysis, cost reasonableness
   determinations, and file documentation.

   Estimated Completion Date: November 2011

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive to the intent of the recommendation. Therefore, the recommendation is
   resolved and will be closed upon completion and verification of the proposed action.



REPORT NO. IG-11-025                                                                           13
                                                                                        RESULTS



Recommendation 3. Remind contracting officers that for contracts that have an appointed
COTR, only the COTR is authorized to recommend invoices for payment. If, on a particular
contract, someone other than the assigned COTR is in a better position to review technical
progress for payment purposes, then remind contracting officers that a formal delegation
naming that individual as an alternate COTR is required.

     Management’s Response: Concur. The Assistant Administrator for Procurement will
     remind contracting officers that for contracts on which a COTR has been delegated
     authority to recommend invoices for payment, only the COTR is authorized to
     recommend invoices for payment to the contract officer.

     Estimated Completion Date: October 2011

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive to the intent of the recommendation. Therefore, the recommendation is
     resolved and will be closed upon completion and verification of the proposed action.




14                                                                        REPORT NO. IG-11-025
APPENDIXES




                                                                            APPENDIX A


Scope and Methodology

   We performed this audit from September 2010 through August 2011 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform our work to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on the objectives. We believe that the
   evidence obtained during this audit provides a reasonable basis for our findings and
   conclusions based on our objectives.

   From a total of 14 Cross-Agency Support contractors performing Recovery Act work at
   JSC, we selected and reviewed a judgmental sample of 9 contractors that received
   $41 million in Recovery Act funds from February 17, 2009, through September 30, 2010.
   For most of the contracts we reviewed, we examined all related task and delivery orders.
   However, for CSC we judgmentally selected two delivery orders totaling $5.5 million
   from a total of 67 construction-related delivery orders with a total value of $12.5 million.
   Because of the issues we identified during our fieldwork involving CSC’s charges for
   risk and project oversight, we expanded our sample to include an additional CSC delivery
   order valued at $2.7 million that we reviewed only for the identified areas of concern.
   Thus, for risk and project oversight we selected three CSC delivery orders for review
   totaling $8.2 million, or 65 percent of the total construction-related Recovery Act award.

   As part of our review, we interviewed Agency program and project officials and
   reviewed contracts, contract modifications, delivery orders, task orders, proposals,
   invoices, technical progress reports, and other documentation to determine whether the
   projects funded met cost, schedule, and performance milestones. We also examined
   whether NASA’s and the award recipients complied with Agency and OMB guidance, as
   well as applicable FAR requirements. We performed our work at Headquarters and JSC,
   the Center that awarded or modified all of the Recovery Act procurement actions for
   Hurricane Ike damage repairs. The projects reviewed at JSC fall under the Cross-Agency
   Support: Institutional Investments Program.

   To accomplish our objective, we also reviewed the following:

      •   American Recovery and Reinvestment Act of 2009, February 17, 2009;
      •   Office of Management and Budget “Updated Implementing Guidance for the
          American Recovery and Reinvestment Act of 2009,” April 3, 2009;
      •   NASA Procurement Information Circular (PIC) 09-06D, “Contracting with
          Recovery Act Funds,” October 14, 2009;



REPORT NO. IG-11-025                                                                              15
                                                                                       APPENDIX A



        •   NASA Procurement Information Circular (PIC) 09-06E, “Contracting with
            Recovery Act Funds,” December 24, 2009;
        •   NASA Procurement Information Circular (PIC) 09-06F “Contracting with
            Recovery Act Funds,” April 1, 2010;
        •   NASA Procurement Information Circular (PIC) 09-06G, “Contracting with
            Recovery Act Funds,” April 7, 2010; and
        •   NASA Procurement Information Circular (PIC) 09-06H, “Contracting with
            Recovery Act Funds,” November 23, 2010.

     Use of Computer-Processed Data. We used computer-processed data to perform this
     audit. The NASA Shared Services Center records JSC’s Recovery Act disbursement data
     in SAP, NASA’s financial management system, when invoices are processed. This data
     is recorded at the contract line item number (CLIN) level to enable tracking of specific
     Recovery Act disbursements against project costs. We reviewed the invoices submitted
     by CSC and traced them to SAP to verify invoice disbursements were posted against the
     proper project line item. In several instances, we found that project costs were
     incorrectly posted in SAP based on the identified CLIN. As a result, SAP did not identify
     the disbursement information at the project level. These incorrect postings did not have
     an impact on the overall cost of the contract, and therefore this issue is not included as a
     finding in our report. However, these incorrect postings do indicate internal control
     deficiencies at the NASA Shared Services Center (NSSC), which we brought to the
     attention of NASA management.

     We also used data from federalreporting.gov, Recovery.gov, and the Federal Procurement
     Data System to perform this audit. These systems are maintained by other agencies. We
     confirmed the reliability of data obtained from these systems by comparing it to selected
     hard copy source data (contract award documents, contractor invoices), without issue.

Review of Internal Controls

     We reviewed NASA’s policies, procedures, and internal controls that address the JSC
     Cross-Agency Support: Institutional Investments Program’s compliance with the
     requirements of the Recovery Act as identified in the “Updated Implementing Guidance
     for the American Recovery and Reinvestment Act of 2009,” issued by OMB, April 3,
     2009. We also reviewed the Program’s compliance with NASA Procurement
     Information Circular (PIC) 09-06E, “Contracting with [Recovery Act] Funds,”
     December 24, 2009, by obtaining and reviewing technical progress reports, financial
     reports, invoices, and other project deliverables. We met with the Recovery Act
     Implementation Executive and NASA Office of Procurement officials to gain an
     understanding of NASA’s processes for awarding Recovery Act contracts and
     modifications to existing contracts as detailed in the Procurement Information Circular.
     We reviewed this Circular to determine whether the Agency documented the internal
     controls required to award contracts and whether the controls were sufficient to ensure
     NASA was complying with Recovery Act provisions, OMB Guidance, and NASA


16                                                                          REPORT NO. IG-11-025
APPENDIXES



   policy. Further, we interviewed procurement officials at JSC and asked them to identify
   the internal control mechanisms in place at the Center level to ensure compliance with
   the Recovery Act. In addition, we asked them to discuss the contract performance
   process and provide supporting documentation to ensure their internal controls were
   functioning effectively. As discussed in this report, NASA’s process for awarding
   Recovery Act contracts could be improved. Our recommendations, if implemented, will
   improve the controls over the Recovery Act award process.

Prior Coverage

   During the last 5 years, the NASA Office of Inspector General (OIG) and the
   Government Accountability Office (GAO) have issued three memorandums and four
   reports related to the subject of this report. Unrestricted reports can be accessed over the
   Internet at http://oig.nasa.gov/audits/reports/FY11 (NASA OIG) and http://www.gao.gov
   (GAO).

   We considered the following memorandums and reports in planning and performing our
   audit activities:

   NASA Office of Inspector General

   “Final Memorandum on Analysis of NASA’s Final Program-Specific Recovery Act
   Plans” (IG-10-005, January 5, 2010)

   “Final Memorandum on Analysis of NASA’s Final Agency-Wide Recovery Act Plan”
   (IG-10-006, January 5, 2010)

   “Final Memorandum on Review of Open Audit Recommendations Affecting Recovery
   Act Activities” (IG-10-014, May 20, 2010)

   “Audit of NASA’s Recovery Act Procurement Actions at Johnson Space Center,
   Goddard Space Flight Center, Langley Research Center, Langley Research Center, and
   Ames Research Center” (IG-10-017, July 27, 2010)

   Government Accountability Office

   “NASA: Assessments of Selected Large-Scale Projects” (GAO-10-227SP, February 1,
   2010)

   “NASA: Key Management and Program Challenges” (GAO-10-387T, February 3, 2010)

   “Recovery Act: Contracting Approaches and Oversight Used by Selected Federal
   Agencies and States” (GAO-10-809, Jul 15, 2010)




REPORT NO. IG-11-025                                                                              17
                                                                                               APPENDIX B




                                             SCHEDULE OF QUESTIONED COSTS
                                                       PAID TO CONTRACTOR


                     Questioned Costsa                        Amount               Page
         Unreasonable Costs
           Amount paid for project oversight, less          $1,837,796               10
           Safety Specialist
           Amount paid for risk events                        $348,534               13
                Total questioned costs                      $2,186,330
     a
         Questioned Costs are expenditures that are questioned by the OIG because of an alleged
         violation of legal, regulatory, or contractual requirements, are not supported by adequate
         documentation at the time of the audit, or are unnecessary or unreasonable.




18                                                                                REPORT NO. IG-11-025
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-11-025                         19
              APPENDIX C




20   REPORT NO. IG-11-025
APPENDIX C




REPORT NO. IG-11-025   21
                                                                                 APPENDIX D




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Financial Officer/Recovery Act Senior Accountable Official
     Recovery Act Implementation Executive
     Director, Johnson Space Center
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management
     Recovery Accountability and Transparency Board

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




22                                                                      REPORT NO. IG-11-025
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   John Apker, Project Manager
   Mark Benson, Auditor
   Dennis Clay, Auditor
   Myra Thompson, Auditor
   Curt Brown, Procurement Specialist
   Frank Mazurek, Attorney




REPORT NO. IG-11-025                                       23
                                                                           September 1, 2011
                                                                   REPORT No. IG-11-025




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
